REGIONAL OFFICES

84 Hartow Sr. 2np Floor
Banoor, Maine 04401
TeL: (207) 941-3070
Fax: (207) 941-3075

AARON M. FREY

ATTORNEY GENERAL 125 Presumpscor Sr., Surre 26

PortLAND, Maine 04103
Tei: (207) 822-0260
Fax: (207) 822-0259

  

STATE OF MAINE

OFFICE OF THE ATTORNEY GENERAL 14 Access Highway, Ste. 1

Carrpou, Maine 04736

TEL: (207) 626-8800 cS
TTY USERS CALL MAINE RELAY 711 6 State House StaTIoN TeL: (207) 496-3792
AucusTta, MAINE 04333-0006 Fax: (207) 496-3291
March 30, 2020

Via Overnight Mail
Scott Harris, Clerk

Supreme Court of the United States
Office of the Clerk

1 First Street, NE

Washington, DC 20543-0001

Re: — Jonathan Reisman y. Associated Faculties of the University of Maine, et al.
No. 19-847

Dear Mr. Harris:

Tam writing to request a sixty-day enlargement of the deadline by which Respondents
must respond to the Petitioner’s Petition for Writ of Certiorari. Respondent Associated Faculties
of the University of Maine; and Respondent University of Maine at Machias, the Board of
Trustees of the University of Maine System do not object to this Request.

The State of Maine (as well as the other Respondents) initially waived their right to
respond to the Petition. On February 27, 2020, the Court requested a response to the Petition by
March 30, 2020. Due to the press of other business, undersigned counsel requested, and was
granted, an enlargement of time to prepare a response to the Petition until April 30, 2020.

On March 15, 2020, the Governor of Maine declared a state of civil emergency in the
State of Maine due to COVID-19. Since early March my time has been almost entirely devoted.
to addressing issues related to the extreme emergency in the State of Maine. For this reason, I
respectfully request an additional sixty days (until June 30, 2020) for all Respondents to respond
to the Petition. I have also contacted Andrew Grossman, Esq., counsel for Petitioner regarding
this request. As of the time this letter was written, | have not heard back from counsel. In light
of the circumstances, I wanted to provide this request to the Court at the earliest possible time.
Thank you.

Very truly yours,

Suan Sermo

SUSAN P. HERMAN
Chief Deputy Attorney General
Scott Harris, Clerk
Supreme Court of the United States
March 30, 2020

Page 2

SPH/Isf

cc:

Andrew Grossman, Esq.
Jacob Karabell, Esq.

Linda D. McGill, Esq.

Tara Walker, Esq.

James Gideon Abernathy, Esq.
George Edward Anhang, Esq.
Jacob H. Huebert, Esq.

Erik S. Jaffe, Esq.

Sam Kazman, Esq.

Nathan John McGrath, Esq.
William L. Messenger, Esq.
Ilya Shapiro, Esq.

Daniel Robert Suhr, Esq.
Erin Elizabeth Wilcox, Esq.
